 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General


           Management Letter
          for the FY 2003 DHS
       Financial Statement Audit




         Ofﬁce of Audits
OIG-04-042         September 2004
                  2001 M Street, NW
                  Washington, DC 20036


April 1, 2004

Office of Inspector General and Chief Financial Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We have audited the consolidated balance sheet of the U.S. Department of Homeland Security
(DHS) as of September 30, 2003, and the related statement of custodial activity for the seven
months then ended and have issued our report thereon dated January 30, 2004. Further, we were
engaged to audit the related consolidated statements of net cost and changes in net position,
combined statement of budgetary resources, and consolidated statement of financing for the seven
months ended September 30, 2003. In planning and performing our audit, we considered DHS’s
internal controls over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the consolidated balance sheet and the related statement of
custodial activity. Audit procedures may not include examining the effectiveness of internal
controls and an audit does not provide assurance on internal control. We have not considered
internal control since the date of our report.

During our audit we noted certain matters involving internal control and other operational matters
that are presented for your consideration in Sections I – IX. These comments and
recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies and
are summarized in the Table of Financial Management Comments on the next page. These
comments are in addition to those reportable conditions presented in our Independent Auditors’
Report, included in the FY 2003 DHS Performance and Accountability Report, dated
February 13, 2004. A description of each internal control finding, and its disposition, as either a
reportable condition or a financial management comment is provided in Appendix A. Our
findings related to information technology systems have been presented in a separate letter to the
Office of Inspector General and the DHS Chief Information Officer dated April 1, 2004.

Our audit procedures were designed primarily to enable us to form an opinion on the consolidated
balance sheet and the related statement of custodial activity described above and therefore may
not bring to light all weaknesses in policies and procedures that may exist. We aim, however, to
use our knowledge of DHS’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

This report is intended for the information and use of DHS’s management, the Office of Inspector
General, the U.S. Office of Management and Budget, the U.S. Congress, and the Government
Accountability Office, and is not intended to be and should not be used by anyone other than
these specified parties.

Very truly yours,




                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                a member of KPMG International, a Swiss association.
                               Department of Homeland Security
                        Table of Financial Management Comments (FMC)
                                       September 30, 2003


              TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Section/Bureau
            Comment
            Reference    Subject                                                          Page

 I     Office of the Chief Financial Officer (OCFO) – Consolidated                          1
            FMC-03-01    Reconciliations of Intra-DHS Eliminations

 II    Customs and Border Protection (CBP)                                                 2–5
            FMC-03-01    Integration of PIMS with AMIS
            FMC-03-02    CARMAC/CAMITS Integration and Outsourcing
            FMC-03-03    Programming/Configuration of AIMS
            FMC-03-04    Prohibited Seized Property
            FMC-03-05    Codified Policy and Procedures for Injured Domestic Industries
            FMC-03-06    Verification of Check Proof Listing
            FMC-03-07    Consolidated Omnibus Reconciliation Act (COBRA) User Fees
            FMC-03-08    Monitoring Collection Actions
            FMC-03-09    Entry Process Deficiencies

III    Emergency Preparedness and Response (EPR)                                           6–9
            FMC-03-01    Subsidy Re-estimate for Credit Reform Loans
            FMC-03-02    Reconciliation of Reimbursable Agreements
            FMC-03-03    Region II Financial Management of Grants
            FMC-03-04    Region VI Financial Management of Grants
            FMC-03-05    Region IX Financial Management of Grants
            FMC-03-06    De-obligation of Disaster-Related Obligations
            FMC-03-07    ADAMS Funding Estimate Report
            FMC-03-08    SF 133 Reporting
            FMC-03-09    Federal Managers’ Financial Integrity Act (FMFIA) of 1982

 IV    Immigration and Customs Enforcement (ICE)                                          10 – 13
            FMC-03-01    Reconciliation of the Statement of Differences
            FMC-03-02    Vermont Service Center Deposit Overages and Shortages
            FMC-03-03    Nebraska Service Center Deposits
            FMC-03-04    Immigration Application Adjudication Process
            FMC-03-05    Monitoring of Backlog Listing and Reconciliation
            FMC-03-06    Accounting for Leases
            FMC-03-07    Recording Personal Property Disposals
            FMC-03-08    Monitoring and Review of Suspense Account Transactions
            FMC-03-09    Chicago District Application Fees
            FMC-03-10    Texas Service Center Application Fees
            FMC-03-11    Maintenance of Service Wide Inventory Plan (SWIP) Labels

 V     Limited Scope Bureaus (LTD)                                                          14
            FMC-03-01    Lease Classification
            FMC-03-02    Environmental Liability

 VI    Office for Domestic Preparedness (ODP)                                               15
            FMC-03-01    Grant Closeout Process
            FMC-03-02    Financial Reporting Process
            FMC-03-03    Financial Management and Oversight




                                               To FMC 1
                                  Department of Homeland Security
                           Table of Financial Management Comments (FMC)
                                          September 30, 2003


           TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC), Continued

Section/Bureau
            Comment
            Reference       Subject                                                        Page

VII       Transportation Security Administration (TSA)                                     16 – 17
               FMC-03-01    Financial Reporting
               FMC-03-02    Records Retention Management
               FMC-03-03    Internal Control Monitoring and Evaluation
               FMC-03-04    Grant Accounting

VIII      United States Coast Guard (USCG)                                                 18 – 22
               FMC-03-01    Suspense Accounts
               FMC-03-02    Reconciliation of Sub-Ledger
               FMC-03-03    OSLTF Investments
               FMC-03-04    Investments Receivable
               FMC-03-05    Allowance for Doubtful Accounts
               FMC-03-06    Retiree and Annuitant Payroll Internal Controls
               FMC-03-07    Pension Data
               FMC-03-08    Medical Cost Information
               FMC-03-09    Imputed Financing
               FMC-03-10    Environmental Liabilities
               FMC-03-11    Legal Representation Letter
               FMC-03-12    Segregation of Duties – Personnel Service Center
               FMC-03-13    Financial Disclosure Reports
               FMC-03-14    Federal Financial Management Improvement Act (FFMIA) of 1996

 IX       United States Secret Service (USSS)                                                23
               FMC-03-01    Personnel Files
               FMC-03-02    Retroactive Salary Increase
               FMC-03-03    Counterfeit Contraband System


                                                  APPENDIX
Appendix       Subject                                                                     Page

      A        Crosswalk – Financial Management Comments to NFR’s                          24 – 27




                                                 To FMC 2
                                                                                        Section I
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003




I.     OFFICE OF THE CHIEF FINANCIAL OFFICER (OCFO) - CONSOLIDATED

OCFO – FMC 03-01 – Reconciliations of Intra-DHS Eliminations (NFR No. 03-08)
       During the seven month period ended September 30, 2003, some DHS bureaus did not
       comply with the intra-DHS elimination reconciliation requirements issued by the DHS
       Office of the Chief Financial Officer (OCFO) in a timely manner.

       Recommendation:
       We recommend that the DHS OCFO develop, implement and monitor procedures that
       require the bureaus to reconcile intra-DHS eliminations at least quarterly beginning in
       fiscal year 2004.




                                               1
                                                                                          Section II
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003




II.    CUSTOMS AND BORDER PROTECTION (CBP)

CBP – FMC 03-01 – Integration of PIMS with AIMS (NFR No. 03-01)
       CBP’s Property Information Management System (PIMS) is not fully integrated with
       CBP’s general ledger system. As a result, PIMS is not automatically updated for
       transactions affecting property, e.g., depreciation expense, accumulated depreciation, or
       valuation changes; and cannot track construction in process for personal property such as
       aircraft and equipment. CBP must make numerous year-end adjustments to reconcile the
       two systems causing inefficiencies and increasing the likelihood of error. We noted that
       CBP planned to implement a new system subsequent to the reporting period that would
       address these weaknesses.

       Recommendation:
       We recommend that CBP develop and deploy a fully integrated asset tracking system.

CBP – FMC 03-02 – CARMAC/CAMITS Integration and Outsourcing (NFR No. 03-02)
       CBP contracts with third parties to provide inventory management services. These
       contractors use their own inventory tracking systems (CAMITS and CARMAC);
       however, these systems do not automatically interface with CBP’s general ledger system.
       CBP must perform manual reconciliations of the systems to obtain accurate information
       on inventory, causing inefficiencies in tracking inventory activity and increasing the
       likelihood of error in financial statement balances.

       Recommendation:
       CBP is planning to transfer the inventory tracking systems to ICE effective October 2003.
       We recommend that ICE integrate inventory tracking systems with its general ledger to
       ensure that transactions affecting inventory quantities and balances are timely and
       accurately recognized in the general ledger.

CBP – FMC 03-03 – Programming/Configuration of AIMS (NFR No. 03-03)
       CBP’s general ledger system, the Asset Information Management System (AIMS), does
       not properly record certain transactions, and it does not record certain other transactions
       when they occur, for example:
           •   AIMS is programmed to record all transactions as appropriated transactions, even
               when they are not; e.g., reimbursable transactions.
           •   CBP is unable to record liabilities and liquidate obligations upon receipt of goods
               or services due to limitations of AIMS.
       These and other conditions require that numerous adjusting journal entries be made in
       AIMS during the financial statement closing process.




                                                2
                                                                            Section II, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003


        Recommendation:
        We recommend that CBP develop systems and processes that ensure transactions are
        recorded timely and with fewer manual processes, thereby improving the controls and
        reliability of financial information. CBP should also comply with applicable sections of
        OMB Circular A-127 and JFMIP by properly accounting for all transactions in the
        general ledger as they occur.

CBP – FMC 03-04 – Prohibited Seized Property (NFR No. 03-11)
        CBP conducts an annual inventory of seized and forfeited property. At some sites, the
        seized property tracking system (SEACATS) was not updated in a timely manner, to
        reflect inventory results, e.g., adjustments to shelf weights. A lack of communications
        between the port locations and the Seizures and Penalties Division (SPD) appeared to
        contribute to this situation. In addition, SPD performed only limited follow-up
        procedures to ensure that inventory adjustments were made.

        Recommendation:
        We recommend that SPD develop and deploy standard operating procedures to ensure
        that the results of seized property inventory procedures are accurately and timely
        reflected in SEACATS. Procedures should include standardized reporting mechanisms to
        improve communications between ports and SPD. Once SEACATS is updated, SPD
        should perform a review to assess the accuracy of the updates. This should be a
        collaborative effort to ensure that the ending 9/30 balances are completely and accurately
        presented in the notes to the financial statements.

CBP – FMC 03-05 – Codified Policy and Procedures for Injured Domestic Industries (NFR
No. 03-07)
        CBP has not formally codified their policies and procedures over the processing and
        recording of Injured Domestic Industry transaction claims.

        Recommendation:
        We recommend that CBP management codify the policy and procedures in effect for
        Injured Domestic Industries.

CBP – FMC 03-06 – Verification of Check Proof Listing (NFR No. 03-13)
        For accelerated drawback payments, a Drawback Chief is required to review the Check
        Proof Listing (CPL) to ensure that a technician has reviewed the payee and other payment
        information related to the related drawback claim package. After the review, the
        Drawback Chief certifies the payments in the Automated Commercial System (ACS).
        However, ACS automatically identifies accelerated payments as being certified by the
        Customs Port Director regardless of whether any review actually occurred. In addition,
        the Drawback Chief’s “review” of the CPL is only performed to verify that the technician
        initialed it, not to verify the accuracy of the system information.




                                                3
                                                                              Section II, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003



        Recommendation:
        We recommend that CBP management improve the overall design of the ACS by
        eliminating the automatic default certification and ensuring the CPL module within ACS
        only processes accelerated drawback claims with proper management approval.

CBP – FMC 03-07 – Consolidated Omnibus Reconciliation Act (COBRA) User Fees (NFR
No. 03-16)
        Under COBRA, retailers of passenger tickets for travel into the United States must collect
        certain fees and remit them to CBP on a quarterly basis. CBP identifies retailers, records
        collections in a database, and follows up on delinquencies. However, CBP has difficulty
        identifying all retailers who owe these fees and the amount it should be collecting. As a
        result, CBP may not be collecting all fees owed it. To monitor compliance, CBP collects
        passenger information from flight/ship manifests that carriers are required to provide.
        Information is entered into tracking systems; however, “country of origin” which is used
        to determine fees, is not included, thus limiting the value of the information for COBRA
        purposes. CBP’s Advanced Passenger Information System (APIS) does collect “country
        of origin” information, but the information is not routinely shared with the Collections
        Department, for matching with amounts due.

        Recommendation:
        We recommend that the Collections Department use passenger arrival information (i.e.,
        number of passengers arriving and country of origin) from APIS to help determine the
        potential revenue gap between what is collected and what should be collected.
        Also, legacy INS performed carrier audits for COBRA compliance. The audit function
        now resides with CBP’s Regulatory Audit Division, according to CBP management. We
        recommend that CBP ensure that these audits continue and results are provided to the
        Collections Department.

CBP – FMC 03-08 – Monitoring Collection Actions (NFR No. 03-09)
        The ACS system does not provide summary information of the total unpaid assessments
        for duties, taxes, and fees by individual importer. Also, ACS does not generate periodic
        management information on outstanding receivables, the age of receivables or other data
        necessary for managers to effectively monitor collection actions. CBP also must utilize
        ad hoc reports and manual procedures to ascertain and adjust certain year-end accounts
        receivable balances.

        Recommendation:
        We recommend that CBP management ensure that any new systems initiatives include a
        “customer-based” accounts receivable subsidiary ledger that interfaces with the general
        ledger system.

CBP – FMC 03-09 – Entry Process Deficiencies (NFR NO. 03-18)
        CBP management has a clear vision of what they would like to accomplish in terms of
        establishing a system of controls in order to fulfill their trade compliance mission. The


                                                 4
                                                                    Section II, Continued
                     Department of Homeland Security
                      Financial Management Comments
                            September 30, 2003


system of controls, as envisioned by management, is elaborate and complex and has been
developed over a number of years. However, we identified deficiencies surrounding
policies and procedures currently in place.
Specifically, CBP policies and procedures issued periodically in various memorandums
are not codified in such a way that users have a clear picture of the overall control
environment, strategic objectives, and the detailed approaches to control. In certain
instances, well-defined policies and procedures were lacking or did not exist.
Additionally, policies and procedures were not always followed, such as lack of data
quality reviews and monitoring of key controls by appropriate levels of management.
Roles and responsibilities of departments and individual positions were sometimes vague
and unclear. Lastly, technology tools were under-utilized or inconsistently deployed.

Recommendations:
We recommend that CPB management:
   a. Organize CBP policies and procedures into a formal codified manual. Where
      policy does not exist, is lacking, or needs to be reinstated, CBP should
      expeditiously finalize such policy so that it can be included in the new codified
      manual.
   b. Establish a process to maintain the new codified manual to keep it current as
      policy is superceded or modified over time. A formalized procedure for
      communicating changes to the manual should be adopted. Once completed, we
      suggest that management use it as the basis for formalized training at many
      different levels. Management should consider using this manual to establish an
      internal quality review checklist whereby independent internal teams would
      assess how CBP is complying with its own policies and procedures. CBP may
      want to consider using the results of such internal quality reviews as part of
      employee performance appraisals.
   c. Evaluate the various technology tools currently employed by different CBP
      locations to ascertain whether tools used only in certain locations should be
      expanded nationally, or whether tools are duplicative and/or should cease to be
      used. The ultimate objective would be to provide technology support and
      training for only the most effective technology tools.




                                       5
                                                                           Section III, Continued
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003




III.   EMERGENCY PREPAREDNESS AND RESPONSE (EPR)

EPR – FMC 03-01 – Subsidy Re-estimate for Credit Reform Loans (NFR No. 03-18)
       The subsidy re-estimate, or an analysis demonstrating that it was not necessary, for the
       credit reform portions of the Federal Emergency Management Agency’s (FEMAs’) loan
       portfolio was not finalized and therefore not submitted to the Office of Management and
       Budget (OMB). Federal accounting standards require that the subsidy cost allowance for
       Credit Reform direct loans and loan guarantees be re-estimated each year as of the date of
       the financial statements.

       Recommendation:
       We recommend that FEMA develop and implement policies and procedures to ensure
       that Credit Reform loan subsidy re-estimates are prepared, reviewed, and submitted to
       OMB in a timely manner.

EPR – FMC 03-02 – Reconciliations of Reimbursable Agreements (NFR No. 03-19)
       FEMA did not maintain adequate documentation to support the reconciliations of the
       Reimbursable Agreement Tracking Log and Budget Log for several reimbursable
       agreements. Additionally, we noted inconsistencies between the reconciliations and the
       applicable reimbursable agreement detail file.

       Recommendation:
       We recommend that FEMA ensure that the reimbursable agreement files adequately
       support the Reimbursable Accountant’s reconciliations of the Reimbursable Agreement
       Tracking Log and Budget Log.

EPR – FMC 03-03 – Region II Financial Management of Grants (NFR No. 03-15)
       During our site visit to Region II, one unliquidated obligation (ULO) amounting to $981
       thousand in our sample was not de-obligated in a timely manner; another amounting to
       $982 thousand lacked documentation to fully support the reported amounts. In addition,
       audit findings and questioned costs that were identified during five grantee Single Audits
       remained unresolved for over one year as of September 30, 2003. Approximately $21
       million of these questioned costs related to expenditures associated with the U.S. Virgin
       Islands.

       Recommendations:
       We recommend that FEMA Region II personnel:
           a. Document and maintain all supporting information related to ULO amounts.
           b. Regularly review all disaster grants to ensure that funds are de-obligated in a
              timely manner.
           c. Examine the progress reports provided by State grant recipients and encourage
              them to provide additional financial and programmatic information.



                                               6
                                                                           Section III, Continued
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003


           d. Coordinate with FEMA Headquarters to address and close the U.S. Virgin
              Islands questioned costs and other Single Audit findings.

EPR – FMC 03-04 – Region VI Financial Management of Grants (NFR No. 03-16)
       Region VI lacks a formal mechanism to track the receipt and review of quarterly financial
       status reports (FSRs) as required by the FEMA Grants Standard Operating Procedures
       (SOP). The quarterly reconciliation does not reflect the reconciliation between National
       Emergency Management Information System (NEMIS) (or its predecessor system, the
       Automated Disaster Assistance Management System (ADAMS)) and Integrated Financial
       Management Information System (IFMIS). The ULOs in our sample lack documentation
       to support their reported amounts. In addition, reconciliation procedures over non-
       disaster grants could be improved. For example, for the two non-disaster grants tested,
       the reconciliations were prepared using incorrect source documentation, and in one case
       reconciling differences of $22,091 were not identified and resolved until reported by the
       auditors.

       Recommendations:
       We recommend that FEMA Region VI personnel:
           a. Develop a mechanism to track and document the dates of receipt and review of
              quarterly FSRs.
           b. Document reconciliations and analyses performed in accordance with SOPs.
           c. Maintain the appropriate supporting information for ULOs in the grant files.
           d. Ensure reconciling differences are resolved in a timely manner.
           e. Ensure grants management specialists receive training, guidance, and oversight
              to ensure reconciliation procedures are performed in accordance with applicable
              SOP’s.

EPR – FMC 03-05 – Region IX Financial Management of Grants (NFR No. 03-17)
       During our visit to Region IX, we noted the following related to disaster grants:
           •   For one grant in our sample, the final financial reconciliation of IFMIS,
               NEMIS/ADAMS, and the State FSR was not performed correctly, which resulted
               in a seven month delay in the close-out of this grant;
           •   Findings or questioned costs amounting to $1 million identified during two
               Single Audits remained unresolved beyond one year;
           •   For three grants tested, FSRs had not been received, which prevented the
               completion of financial reconciliations;
           •   For one grant tested, the reconciliation for the period ended March 31, 2003 was
               not performed until requested by the auditors;
           •   For one grant tested, discrepancies amounting to $1 million existed between
               Smartlink amounts shown on the supporting documentation and the amounts
               representing Smartlink obligations and drawdowns found in the reconciliations;


                                               7
                                                                           Section III, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003


           •    The Region’s internal policy did not enforce timely FSR submission by the
                States/grantees, causing significant delays in the completion of the
                reconciliations; and
           •    For one grant tested, an incorrect Catalog of Federal Domestic Assistance
                (CFDA) number was used by the grant recipient on its SF-424 (Request for
                Federal Assistance) form.

       We noted the following related to non-disaster grants tested:
           •    For one grant, there was no documentation showing that a cost-share analysis
                was performed on a grant eligible for State cost-share;
           •    For the two grants tested, there was no documentation to prove that the
                reconciliations between the FSR and IFMIS were performed; and
           •    For two grants tested, there was no documentation of the cause and resolution of
                the variances identified in the summary reconciliations.

       Recommendations:
       We recommend that:
           a. Headquarters ensure that Region IX and Area Office grants management
              specialists receive the training, guidance, and oversight to ensure that
              reconciliation procedures are performed in accordance with applicable SOPs.
           b. The Region take steps to ensure that required reconciliations are performed and
              that all supporting documentation is maintained in the grant file.
           c. The Region review its procedures to ensure the timely submission of FSRs.
           d. Headquarters examine the current processes and oversight established at the
              Region to ensure that Single Audit findings and questioned costs are reviewed
              and resolved in a timely manner. Also, the open findings and questioned costs
              noted during our visit should be resolved.
           e. Headquarters and the Region should provide training to grant recipients on the
              completion of FSRs.
           f.   Grants management specialists document their cost-share analyses.
           g. Headquarters and Regional personnel clearly communicate all grant identifying
                information and modifications, including CFDA number, to the grant recipient
                and retain this information in the grant file.

EPR – FMC 03-06 – De-obligation of Disaster-Related Obligations (NFR No. 03-21)
       We noted instances in which an unliquidated obligation had not been de-obligated
       although all work under the related agreements or grant had been performed.

       Recommendation:
       We recommend that FEMA routinely monitor (e.g., on a quarterly basis) all ULO
       amounts, especially those related to Mission Assignments, Interagency Agreements, and



                                                8
                                                                             Section III, Continued
                               Department of Homeland Security
                                Financial Management Comments
                                      September 30, 2003


         other cooperative agreements, per the FEMA Mission Assignment and Grants
         Management handbooks, for correct and timely de-obligation of ULO amounts.

EPR – FMC 03-07 – ADAMS Funding Estimate Report (NFR No. 03-25)
         Region IX could improve reconciliation procedures on amounts remaining in the
         ADAMS Funding Estimate Report compared with the amount shown as the ULO in
         IFMIS for Disaster 979.

         Recommendations:
         We recommend that Region IX personnel:
             a. For Disaster 979, complete a detailed reconciliation between IFMIS, ADAMS,
                and State records to ensure that all funds have been properly reported.
             b. Perform a review of the remaining disaster funds currently operated out of
                ADAMS and investigate and correct any remaining un-reconciled amounts.

EPR – FMC 03-08 – SF 133 Reporting (NFR No. 03-28)
         The amount reported in FEMAs' Report on Budget Execution (SF 133s) for the fourth
         quarter did not agree to the amounts reported within the FEMA general ledger and the
         TFS 2108.

         Recommendations:
         We recommend that FEMA:
             a. Submit a revised SF 133 to properly reflect the activity reported within their
                general ledger.
             b. Implement policies and procedures to ensure future SF 133s are reported
                correctly and timely.

EPR – FMC 03-09 – Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (NFR No.
03-29)
         Four of five assurance statements provided to the Director of FEMA did not fully comply
         with FMFIA criteria because they lacked management’s assessment of controls based on
         their own internal reviews. Instead, the assessment of controls was based on the work of
         external auditors, which may not directly address the requirements of FMFIA and should
         not replace managers’ own comprehensive reviews.

         Recommendation:
         We recommend that FEMA program managers develop procedures to improve
         assessment of their programs’ internal controls.




                                                 9
                                                                                      Section IV
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003


IV.    IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE)

ICE – FMC 03-01 – Reconciliation of the Statement of Differences (NFR No. 03-05)
       ICE’s reconciliation procedures that address the differences noted on the Treasury FMS-
       6652 should be improved.

       Recommendation:
       We recommend that ICE headquarters perform reconciliations of the FMS-6652 for all its
       Agency Location Codes (ALCs) on a monthly basis and investigate differences in a
       timely manner.

ICE – FMC 03-02 – Vermont Service Center Deposit Overages and Shortages (NFR No. 03-
06)
       Overage or shortages noted during a deposit reconciliation process at the Vermont
       Service Center are not always documented in an overage/shortage memorandum, as
       required by ICE policy.

       Recommendation:
       We recommend that the Vermont Service Center adhere to the ICE policy established by
       the Debt Management Center regarding the preparation and submission of the
       overage/shortage memorandum.

ICE – FMC 03-03 – Nebraska Service Center Deposits (NFR No. 03-07)
       The deposit process at the Nebraska Service Center should be improved, to fully comply
       with policies set forth by the Treasury Financial Manual and the Debt Management
       Center. Currently deposits are not made until discrepancies are resolved, which can delay
       deposits and the preparation of an overage/shortage memorandum, if necessary.

       Recommendations:
       We recommend that ICE:
           a. Implement a policy to ensure compliance with the Treasury Financial Manual
              policy that requires receipts totaling $5,000 or more be deposited on the same
              day received prior to depositary cutoff time or the next business day if received
              after the depositary cutoff time.
           b. Adhere to the policy established by the Debt Management Center regarding the
              preparation and submission of the overage/shortage memorandum.

ICE – FMC 03-04 – Immigration Application Adjudication Process (NFR No. 03-08)
       Immigration applications processed by the Vermont Service Center are, occasionally,
       stamped as ‘approved’ before a required Integrated Background Information System
       (IBIS) check has been performed. In addition, the Computer-Linked Application
       Information Management 3 System (CLAIMS 3) was not always updated to reflect
       completed applications in a timely manner and on a consistent basis.



                                              10
                                                                              Section IV, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003




       Recommendations:
       We recommend that the Vermont Service Center:

           a. Adhere to the Adjudicator’s Field Manual, Section 10.3 whereby adjudication
              officers do not stamp immigration applications as “approved” until all required
              IBIS checks have been completed.
           b. Implement a policy requiring that all completed applications be input into
              CLAIMS 3 by the end of the reporting period.

ICE – FMC 03-05 – Monitoring of Backlog Listing and Reconciliation (NFR No. 03-09)
       Monitoring of the backlog list of reconciling items (related to the Fund Balance with
       Treasury reconciliation) could be improved at the Payroll, Accounting, and
       Reconciliation Center (PARC) and Headquarters to ensure that differences are cleared on
       timely basis. The majority of reconciling items aged greater than 30 days as of September
       30, 2003, were related to the G-264 (a report used in the reconciliation process) at
       Headquarters for ALC 7070011515. We noted that several reconciling items have been
       on the backlog list for a prolonged period of time.

       Recommendation:
       We recommend that the OFM at PARC adhere to its policy of monitoring and follow-up
       on the consolidated backlog list to ensure timely clearing of reconciling items, including
       the review of the G-264 related backlog list, to ensure the timely clearing of reconciling
       items.

ICE – FMC 03-06 – Accounting for Leases (NFR No. 03-17)
       Policies and procedures to review and determine the proper accounting treatment for
       leased equipment could be improved. We noted that some equipment was classified and
       recorded in the general ledger as a “capital” lease when the leases should have been
       accounted for as operating leases.

       Recommendation:
       We recommend that the Logistics Department review the accounting treatment of
       existing leases (e.g., their classification as capital or operating), and establish procedures
       to review new leases for proper accounting treatment and reporting. The policy should
       be communicated to Property Coordinators at each of the field locations.

ICE – FMC 03-07 – Recording Personal Property Disposals (NFR No. 03-18)
       The timeliness of reporting property disposal dates could be improved. Property disposal
       dates reported in the fixed asset system, AMIS, were significantly later than the actual
       disposal date.




                                                 11
                                                                            Section IV, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003



       Recommendation:
       We recommend that the Logistics Department management communicate to Property
       Coordinators at each of the field locations the importance of recording personal property
       transactions in AMIS timely, including the need to record all disposals from the date of
       inventory through year-end.

ICE – FMC 03-08 – Monitoring and Review of Suspense Account Transactions (NFR No. 03-
19)
       Transactions posted to the Suspense Fund are not being cleared in a timely manner. The
       majority of reconciling items aged greater than 30 days as of September 30, 2003, was
       related to suspense items for which the Headquarters accounting office was responsible
       (ALC 707011515).

       Recommendation:
       We recommend that the Office of Financial Management monitor, research, and resolve
       pending transactions in the suspense accounts in a timely manner. Generally all
       suspended transactions should be cleared and posted to the correct account within 30 - 45
       days.

ICE – FMC 03-09 – Chicago District Application Fees (NFR No. 03-20)
       At the Chicago District Office, checks and money orders received for application fees are
       not routinely restrictively endorsed upon receipt; applications awaiting pre-screening and
       the associated remitted fees are not kept in a secure area; and application fees are not
       being deposited in accordance with Treasury regulations due to a backlog of applications
       awaiting pre-screening.

       Recommendations:
       We recommend that the Chicago District Office:
           a. Implement policies and procedures to ensure that checks and money orders are
              restrictively endorsed upon receipt.
           b. Implement policies and procedures to adequately safeguard checks and money
              orders that have not been deposited.
           c. Reduce the backlog of applications that have not been pre-screened so
              application fees are deposited as prescribed by Treasury.

ICE – FMC 03-10 – Texas Service Center Application Fees (NFR No. 03-21)
       Controls over the physical access to application fee receipts while in the possession of the
       data entry clerks at the Texas Service Center could be improved. Specifically, application
       fees received are not always maintained in a secure location while data entry clerks are
       away from their desks.




                                               12
                                                                            Section IV, Continued
                               Department of Homeland Security
                                Financial Management Comments
                                      September 30, 2003



         Recommendation:
         We recommend that the Texas Service Center implement procedures to safeguard
         application receipts at all times until processing and deposit is complete.

ICE – FMC 03-11 – Maintenance of Service Wide Inventory Plan (SWIP) Labels (NFR No.
03-22)
         Some applications did not have the appropriate SWIP barcode or label physically affixed
         to the application file folder. Policies and procedures regarding the maintenance of the
         SWIP barcodes have not been updated since the issuance of the fiscal year 2001 SWIP
         instructions. The policies and procedures also lack guidance on the maintenance of the
         SWIP barcodes after they are placed on the file folder; e.g., removal of the SWIP barcode
         when the application is completed, and the placement of a “none” barcode on the file
         folder when there are no pending applications remaining in the file.

         Recommendations:
         We recommend that CIS management:
             a. Implement procedures to ensure that CIS policy of placement of barcodes on all
                applications is consistently followed, and provide CIS employees and contractors
                with the appropriate training to ensure that these procedures are performed
                properly.
             b. Develop improved policies and procedures to ensure maintenance of SWIP
                barcodes throughout the application process.




                                                13
                                                                                         Section V
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003




V.     LIMITED SCOPE BUREAUS (LTD)

FLETC – FMC 03-01 – Lease Classification (NFR No. 03-05)
       Based on FY 2002 audit findings, the Federal Law Enforcement Training Center
       (FLETC) requested that OMB review three 20-year non-cancelable leases for dormitory
       buildings, determine the classification of the leases as operating or capital, and determine
       if FLETC had the authority to enter into these agreements. Until the OMB investigation
       is complete, FLETC is reporting a liability related to these leases in the amount of
       approximately $65 million as an unfunded contingent liability in a multi-year
       appropriation/Treasury Fund Symbol.

       Recommendation:
       We recommend that FLETC, with the assistance of DHS management, work with OMB
       to obtain resolution of this issue and then record the appropriate accounting entries based
       on the resolution.

ST – FMC 03-02 – Environmental Liability (NFR No. 03-09)
       The Plum Island Animal Disease Center (PIADC) did not record an environmental
       liability for 2003, even though remediation costs have been budgeted for future years and
       the payment of such costs appears likely. In addition, no environmental liability
       assessment process independent of the budget process exists.

       Recommendation:
       We recommend that the PIADC evaluate, at least annually at fiscal year-end, the
       probable environmental liability for inclusion in the DHS consolidated financial
       statements. We also recommend that the PIADC develop and implement an
       environmental liability assessment process that would assist in understanding, managing,
       and monitoring all its environmental liabilities.




                                               14
                                                                                        Section VI
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003




VI.    OFFICE FOR DOMESTIC PREPAREDNESS (ODP)

ODP – FMC 03-01 – Grant Closeout Process (NFR No. 03-02)
       ODP should improve the timeliness of its grant closeout process. In addition, grant files
       did not contain documentation to justify a delay in the grant closeout process.

       Recommendation:
       We recommend that ODP management fully comply with its adopted policy for closing
       grants, including identifying individual program managers as responsible parties and
       establishing performance goals that focus on the timely closing of grants.

ODP – FMC 03-02 – Financial Reporting Process (NFR No. 03-03)
       ODP’s financial statement preparation and analysis process could be improved.
       Specifically, ODP did not establish a closing accounting period (i.e., period 13 and 14)
       and did not perform a comprehensive general account relationship analysis to ensure
       agreement of budgetary and proprietary accounts. In addition, ODP’s data submitted via
       TIER file to DHS for financial statement preparation was incomplete.

       Recommendations:
       We recommend that ODP management work with its accounting provider, i.e., OJP to:
           a. Utilize current IFMIS capability by posting all post-September 30 adjustments as
              period 13 and as necessary period 14 adjustments.
           b. Develop procedures and perform analysis of IFMIS financial data prior to
               submission of TIER data to DHS, including the comparison and performance of
               account relationship testing for proprietary and budgetary general ledger account
               balances, as applicable, and confirming that the submission information is
               complete.

ODP – FMC 03-03 – Financial Management and Oversight (NFR No. 03-04)
       ODP’s management should be more involved in financial reporting activities to mitigate
       reliance on its accounting service provider, OJP. ODP management did not review its
       open obligation report on a quarterly basis and provide feedback to OJP, on the accuracy
       of the listing or obligations that need to be deobligated, as requested by OJP. ODP
       management did not review its FY 2003 financial statements for reasonableness, taking
       into consideration its normal business operations.

       Recommendation:
       We recommend that ODP designate an official to perform an oversight role and take
       responsibility for its financial activities and perform necessary reviews of its quarterly
       obligation reports and perform a periodic review of its financial statements to determine
       if anomalies exist given its business operations.




                                               15
                                                                                        Section VII
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003




VII.   TRANSPORTATION SECURITY ADMINISTRATION (TSA)

TSA – FMC 03-01 – Financial Reporting (NFR No. 03-06)
       TSA did not have an adequate process in place to track and determine the proper
       accounting for leasing arrangements and related financial information for financial
       statement disclosures.

       Recommendation:
       We recommend that TSA implement policies and procedures to ensure that all leases are
       identified and future minimum lease payments are properly calculated and disclosed.

TSA – FMC 03-02 – Records Retention Management (NFR Nos. 03-04 and 03-07)
       TSA could improve its records retention management:
           •   Several personnel files we requested were incomplete (e.g., health benefit or life
               insurance election forms were missing), and several files were missing.
           •   Property records were not adequately maintained; i.e., source documentation
               could not be provided on a timely basis.
           •   Invoices and other supporting documentation related to expenses, undelivered
               orders, and accounts payable could not be provided on a timely basis.

       Recommendation:
       We recommend that TSA improve its standard operating procedures and practices over
       records retention.

TSA – FMC 03-03 – Internal Control Monitoring and Evaluation (NFR Nos. 03-08 and 03-09)
       TSA does not have a fully implemented FMFIA process in place, for example the process
       does not cover all significant processes.

       Recommendation:
       We recommend that TSA implement a process to monitor and evaluate its internal
       controls to meet the requirements for FMFIA reporting and improve its overall control
       structure.

TSA – FMC 03-04 – Grant Accounting (NFR No. 03-02)
       The U.S. Maritime Administration (MARAD) disburses funds on behalf of TSA under
       the Port Security Grant program. The schedule of expenditures provided by MARAD
       was prepared on a cash basis rather than on an accrual basis. TSA used this information
       to record grant activity, which resulted in misstated financial statements until the figures
       were converted to an accrual basis.




                                                16
                                                                           Section VII
                     Department of Homeland Security
                      Financial Management Comments
                            September 30, 2003



Recommendation:
We recommend that the TSA implement policies and procedures to ensure that all grant
activity is properly accounted for on an accrual basis.




                                     17
                                                                          Section VIII, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003




VIII.   UNITED STATES COAST GUARD (USCG)

USCG – FMC 03-01 – Suspense Accounts (NFR No. 03-043)
        Finance Center personnel did not review and analyze transactions posted to
        clearing/suspense accounts in a timely manner during the seven-month period ended
        September 30, 2003.

        Recommendation:
        We recommend that the USCG establish procedures to ensure that clearing/suspense
        accounts are reviewed and cleared (e.g., pending transactions are investigated and posted
        to the appropriate accounts) on a timely basis after each month-end.

USCG – FMC 03-02 – Reconciliation of Sub-Ledger (NFR No. 03-011)
        We noted some instances where USCG personnel do not routinely compare and reconcile
        balances recorded in subsidiary ledgers with the balances recorded in the general ledger.

        Recommendation:
        We recommend that the USCG establish procedures to ensure that subsidiary ledgers are
        reconciled to the general ledger on a monthly basis and appropriate adjustments are made
        to ensure the accuracy of its financial information.

USCG – FMC 03-03 – OSLTF Investments (NFR No. 03-040)
        The USCG relies on an outside service provider to process receipts, disbursement, and
        transfers related to the Oil Spill Liability Trust Fund (OSLTF), for which it has
        administrative responsibility. However, USCG had not ascertained if internal controls at
        the service provider over OSLTF transactions were properly designed or operating
        effectively.

        Recommendation:
        We recommend that the USSG obtain and review the Independent Auditors’ Report on
        the audit of the service organization’s internal controls. The report should be reviewed to
        determine if controls over USCG transactions are designed and operating effectively and
        for the proper period of time (i.e., the current fiscal year). The USCG should notify its
        service organization with any questions or concerns related to the reliability of controls
        over its transactions.

USCG – FMC 03-04 – Investments Receivable (NFR No. 03-030)
        We noted that the USCG lacks routine processes to independently verify the accuracy of
        its investment balances held by the Bureau of Public Debt.




                                                18
                                                                         Section VIII, Continued
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003



       Recommendation:
       We recommend that the USCG establish a process to routinely and independently verify
       investment balances held with other agencies (e.g., the Bureau of Public Debt and the
       Fish and Wildlife Service).

USCG – FMC 03-05 – Allowance for Doubtful Accounts (NFR No. 03-009)
       The USCG has not implemented procedures to review outstanding accounts receivable
       nor established an allowance for doubtful accounts for public receivables other than those
       associated with the OSLTF.

       Recommendations:
       We recommend that the USCG:
           a. Periodically review significant outstanding accounts receivable from the public
              to assess collectibility and establish an appropriate allowance for doubtful
              accounts receivable.
           b. Individually analyze the significant accounts receivable and consider the (1) the
              debtor's ability to pay, (2) the debtor's payment record and willingness to pay,
              and (3) the probable recovery of amounts from secondary sources, including
              liens, garnishments, cross collections and other applicable collection tools.
           c. Calculate an estimated allowance for doubtful accounts receivable for the
              aggregate of non-significant outstanding balances due from the public.
           d. Record an appropriate allowance for doubtful accounts receivable in the general
              ledger.

USCG – FMC 03-06 – Retiree and Annuitant Payroll Internal Controls (NFR No. 03-007)
       Reconciliation control procedures related to monthly retiree and annuitant payroll should
       be documented. Also, the review of a monthly exception report, which identifies
       members who are receiving both active duty and retired pay, was not properly performed.

       Recommendations:
       We recommend that the USCG:
           a. Document the reconciliation procedures currently performed by the accounting
              technician in the Retiree and Annuitant Services branch.
           b. Establish procedures to ensure that all monthly exceptions are reviewed and
              investigated and corrective action taken when necessary and resulting actions are
              properly documented.

USCG – FMC 03-07 – Pension Data (NFR No. 03-038)
       We noted two instances where the USCG did not have adequate documentation to
       support key data elements for active duty/reserve service members (e.g., birth date and
       pay base date).



                                              19
                                                                           Section VIII, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003


       Recommendation:
       We recommend that the USCG establish procedures to ensure the accuracy of archived
       personnel data elements, including the information provided to its actuarial firm.

USCG – FMC 03-08 – Medical Cost Information (NFR No. 03-024)
       USCG personnel did not provide accurate retiree medical cost information to its actuarial
       firm, which uses the data to estimate a liability for future medical costs.

       Recommendation:
       We recommend that the USCG develop procedures and appropriate controls to ensure
       that medical cost information provided to the actuarial firm is accurate, complete, and
       fully supported.

USCG – FMC 03-09 – Imputed Financing (NFR No. 03-037)
       During the seven months ended September 30, 2003, the USCG financial management
       personnel did not recognize imputed financing costs related to health care benefits for
       Medicare-eligible retirees, family members and surviving spouses.

       Recommendation:
       We recommend that the USCG establish procedures to obtain and record imputed
       financing costs associated with Medicare-eligible retiree health care costs.

USCG – FMC 03-10 – Environmental Liabilities (NFR Nos. 03-027 and 03-28)
       The USCG’s process for calculating its environmental liabilities associated with vessels
       and shore facilities may not result in accurate estimates for financial statement purposes.

       Recommendation:
       We recommend that the USCG develop and implement policies and procedures to
       improve the accuracy of estimated environmental liabilities for vessels and shore
       facilities. The procedures should consider the total projected costs for remediation,
       regardless of the source of funding.

USCG – FMC 03-11 – Legal Representation Letter (NFR No. 03-029)
       The USCG’s process for preparing its legal representation letter could be improved.
       Specifically, the annual letter received from the USCG legal counsel for financial
       statement purposes did not fully comply with OMB Bulletin No. 01-02. In addition, a
       large percentage of contingent liability estimates used ranges of potential loss in lieu of a
       single “most likely” loss estimate.

       Recommendations:
       We recommend that the USCG:
           a. Establish controls to ensure that the language contained in the letter from legal
              counsel complies with recommended language provided in OMB Bulletin No.
              01-02.


                                                20
                                                                          Section VIII, Continued
                              Department of Homeland Security
                               Financial Management Comments
                                     September 30, 2003


           b. With legal counsel, improve the process of assessing the contingent legal liability
              to improve the accuracy of balances presented in the financial statements and
              accompanying notes; e.g., use a “most likely” balance instead of ranges when
              possible.

USCG – FMC 03-12 – Segregation of Duties – Personnel Service Center (NFR No. 03-010)
       Controls related to access rights and segregation of duties for personnel and travel
       transactions could be improved.
           •   Access privileges for individuals at the Cape May Training Center and the
               Personnel Service Center (PSC), who process personnel transactions, do not
               provide for appropriate segregation of duties.
           •   One Coast Guard service member at the PSC had access rights without a current
               authorization form on file.
           •   Responsibilities for reviewing travel claims, including making additions and
               deletions and approving claims, are not appropriately segregated.

       Recommendations:
       We recommend that the USCG:
           a. Review access rights and privileges and make appropriate change to ensure
              proper segregation of duties.
           b. Implement compensating controls where necessary to mitigate the risks related to
              the lack of segregation of duties.
           c. Establish a process to periodically review access rights and privileges.
           d. Ensure submission of an access authorization form prior to granting a service
              member system access and perform periodic reviews for compliance.
           e. Develop policy and procedures that ensure proper segregation of duties for travel
              transactions processing. Establish compensating controls, if appropriate, to
              ensure proper segregation of duties. Periodically monitor the roles and
              responsibilities of Travel Branch personnel to ensure proper segregation of
              duties.

USCG – FMC 03-13 – Financial Disclosure Reports (NFR No. 03-033)
       The process for managing the submission, review, and retention of confidential financial
       disclosure reports (CFDRs) was not fully effective. Responsible personnel, referred to as
       reviewing officials, were not able to produce CFDR’s for four of fifteen personnel
       sampled. In addition, Commandant Instruction 5370.9A, Financial Disclosure Reports,
       had not been revised to reflect the USCG’s transfer from the Department of
       Transportation to DHS.




                                               21
                                                                       Section VIII, Continued
                            Department of Homeland Security
                             Financial Management Comments
                                   September 30, 2003


       Recommendations:
       We recommend that the USCG:
           a. Establish and implement controls to ensure that Reviewing Officials are
              effectively managing the CFDR process.
           b. Update Commandant Instruction 5370.9A considering changes needed to reflect
              the transfer of operations from the legacy department to DHS.

USCG – FMC 03-14 – Federal Financial Management Improvement Act (FFMIA) of 1996
(NFR No. 03-001)
       The USCG did not fully comply with three requirements of FFMIA, specifically:
           •   USCG did not properly account for its Operating Material and Supplies in
               accordance with Statement of Federal Financial Accounting Standard Number 3,
               Accounting for Inventory and Related Property.
           •   USCG did not comply with Federal system requirements because it did not have
               a fully integrated financial system, as there were three separate, stand-alone
               general ledger systems, and a non-integrated payroll system.
           •   During FY 2003 the USCG used the Department of Transportation’s
               Departmental Accounting and Financial Information System and Coast Guard
               Oracle Financial system as their primary general ledger accounting systems.
               Both of these systems were not fully compliant with the U.S. Standard General
               Ledger (USSGL).

       Recommendations:
       We recommend that the USCG coordinate with the DHS Office of the CFO to determine
       the corrective actions needed for USCG to become fully compliant with federal systems
       requirements and the USSGL at the transaction level.




                                             22
                                                                                      Section IX
                             Department of Homeland Security
                              Financial Management Comments
                                    September 30, 2003




IX.    UNITED STATES SECRET SERVICE (USSS)

USSS – FMC 03-01 – Personnel Files (NFR No. 03-02)
       The process used by the U.S. Secret Service (USSS) to maintain employee personnel
       records could be improved. Specifically, we noted instances where Notice of Personnel
       Actions (SF-50), Health Care Coverage (SF-2809) and subsequent updated coverage
       forms were not included in employee files.

       Recommendation:
       We recommend that the USSS establish a process to ensure that personnel files contain
       all documentation supporting personnel actions. This process should include creating and
       periodically reviewing a checklist of documentation and information required in each file.

USSS – FMC 03-02 – Retroactive Salary Increase (NFR No. 03-01)
       We noted one instance where the USSS had not fully complied with an Executive Order
       requiring the retroactive pay increase of one employee.

       Recommendation:
       We recommend that the USSS adopt procedures to ensure that all Executive Orders,
       including those over personnel actions, are implemented in a timely manner.

USSS – FMC 03-03 – Counterfeit Contraband System (NFR No. 03-05)
       The USSS Counterfeit Contraband System used to track “Not In Evidence” counterfeit
       items does not always provide consistent information.

       Recommendation:
       We recommend that the USSS continue steps to implement a new counterfeit custody
       system that meets the Joint Financial Management Improvement Program’s Seized
       Property and Forfeited Asset System Requirements.




                                              23
                                                                                                 Appendix A
                              Department of Homeland Security
                     Crosswalk – Financial Management Comments to NFR’s
                                      September 30, 2003




                                                                                         Disposition
                                                                                   PAR                 FMC
         NFR
Bureau                                  Description                           MW         RC      Page    No.
         No.
                 Transferred-in Balances from DHS Legacy and Related
CONS     03-01                                                                 G
                 Accrual Issues
                 Improvements Needed Regarding the Timely Issuance of
CONS     03-02   Performance and Accountability Report Preparation            A, B
                 Instructions
                 Identification of Direct and Material Laws and Regulations
CONS     03-03   that are Direct and Material to the DHS Consolidated          A
                 Financial Statements
CONS     03-04   Imputed Costs                                                 A
                 Compliance with FFMIA- Consistent Application of
CONS     03-05                                                                A, B
                 USSGL by DHS Bureaus.
                 Accounting for the Transfer-in Balances from DHS Legacy
CONS     03-06                                                                 G
                 Agencies
                 Lack of Controls over Bureau-Level TIER Inputs/Outputs
CONS     03-07                                                                 B
                 and CFO Vision Outputs
CONS     03-08   Controls over the Intra-DHS Elimination Process                                  1      03-01
                 Classification of Certain Accounts in the DHS Financial
CONS     03-09                                                                A, B
                 Statements
CONS     03-10   Statement of Net Cost Presentation and Reporting.             B

 CBP     03-01   Integration of PIMS with AIMS                                                    2      03-01
 CBP     03-02   CARMAC/CAMITS Integration and Outsourcing                                        2      03-02
 CBP     03-03   Programming/Configuration of AIMS                                                2      03-03
 CBP     03-04   Review of Prior Related Drawback Claims                                 H
 CBP     03-05   Detection of Excessive Drawback Claims                                  H
                 Internal Control over the Drawback Process in New
 CBP     03-06   York/Newark was Negatively affected by the events of                    H
                 September 11, 2001.
                 Codified Policy and Procedures for Injured Domestic
 CBP     03-07                                                                                    3      03-05
                 Industries
 CBP     03-08   ACS Selectivity for Underlying Consumption Entries                      H
                 Automated Commercial System deficiencies over Accounts
 CBP     03-09   Receivable and CBP’s ability to effectively monitor                              4      03-08
                 collection actions.
                 No Quality Control Over In-bond Warehousing and
 CBP     03-10                                                                            I
                 Movement
 CBP     03-11   Recording Post-Inventoried Shelf Weights                                         3      03-04
 CBP     03-13   Verification of Check Proof Listing                                              3      03-06
 CBP     03-14   Overpayment of Drawback Claims                                          H
                 Retention Period for Documents that Support Drawback
 CBP     03-15                                                                           H
                 Claims
                 Inability to Assess the Appropriate Amount of Consolidated
 CBP     03-16                                                                                    4      03-07
                 Omnibus Reconciliation Act (COBRA) User Fees Due
 CBP     03-17   Intragovernmental Elimination Reconciliation                            L
 CBP     03-18   Entry Process Deficiencies                                                       4      03-09


                                                       24
                                                                                                    Appendix A
                              Department of Homeland Security
                     Crosswalk – Financial Management Comments to NFR’s
                                      September 30, 2003




                                                                                            Disposition
                                                                                      PAR                 FMC
         NFR
Bureau           Description                                                     MW         RC      Page        No.
         No.
                 Timeliness of preparing and closing opening period trial
 EPR     03-01                                                                   A
                 balances must be improved.
                 Timeliness in reconciling Fund Balance with Treasury as of
 EPR     03-02                                                                   A
                 February 28, 2003 should be improved.
                 Timeliness in clearing errors related to FEMAs’ DHS TIER
 EPR     03-03                                                                   B
                 transmission must be improved.
 EPR     03-15   Region II Financial Management of Grants                                             6     03-03
 EPR     03-16   Region VI Financial Management Grants                                                7     03-04
 EPR     03-17   Region IX Financial Management of Grants                                             7     03-05
                 Lack of Preparation of Subsidy Re-estimate for Credit
 EPR     03-18                                                                                        6     03-01
                 Reform Loans
                 Reconciliation’s of Reimbursable Agreements are not
 EPR     03-19                                                                                        6     03-02
                 Maintained and Properly Reviewed
                 Lack of Timely De-obligation of Disaster Related
 EPR     03-21                                                                                        8     03-06
                 Obligations
 EPR     03-25   ADAMS Inconsistency for Disaster 979-Pulic Assistance                                9     03-07
                 Re-issuance of Prior Year Finding – Quarterly Intra-
 EPR     03-27                                                                               L
                 governmental balance reconciliation’s with Trading Partners
 EPR     03-28   Improper SF 133 Reporting                                                            9     03-08
 EPR     03-29   Federal Managers’ Financial Integrity Act of 1982                                    9     03-09

                 Timeliness in clearing errors related to DHS TIER
 ICE     03-01                                                                   B
                 transmission must be improved.
                 Improvement Needed in Reconciliation of the FMS-6652,
 ICE     03-05                                                                                       10     03-01
                 Statement of Differences (SOD), at Headquarters
                 Need to Improve the Use of the Deposit Overage/Shortage
 ICE     03-06                                                                                       10     03-02
                 Memo at the Vermont Service Center.
                 Improve Use of the Deposit Overage/Shortage Memo and
 ICE     03-07                                                                                       10     03-03
                 Make Timely Deposits at the Nebraska Service Center.
                 Improvements are Needed in the Immigration Application
 ICE     03-08                                                                                       10     03-04
                 Adjudication Process at the Vermont Service Center
                 Monitoring and Review of the Backlog List and Subsequent
 ICE     03-09                                                                                       11     03-05
                 Clearing of the Reconciling Items Need to be Improved
                 Non-compliance with OMB 01-09 regarding quarterly
 ICE     03-16                                                                               L
                 reconciliations of intragovernmental activity
 ICE     03-17   Operating leases were included as personal property                                 11     03-06
                 Controls over the recording of personal property disposals in
 ICE     03-18                                                                                       11     03-07
                 AMIS need improvement
                 Monitoring and Review of the Suspense Account and
 ICE     03-19   Subsequent Clearing of the Transactions Needs to be                                 12     03-08
                 Improved
                 Controls related to application fees need to be improved at
 ICE     03-20                                                                                       12     03-09
                 the Chicago District Office
                 Physical Controls Related to Application Receipts Could Be
 ICE     03-21                                                                                       12     03-10
                 Improved at the Texas Service Center
 ICE     03-22   Maintenance of SWIP Labels Needs Improvement                                        13     03-11
                 Process for Verifying and Validating Obligations and
 ICE     03-23                                                                              N
                 Recording Undelivered Orders Needs Improvement




                                                       25
                                                                                               Appendix A
                              Department of Homeland Security
                     Crosswalk – Financial Management Comments to NFR’s
                                      September 30, 2003




                                                                                       Disposition
                                                                                 PAR                 FMC
         NFR
Bureau            Description                                                MW        RC      Page        No.
          No.
 LTD     03-01    Strategic National Stockpile Inventory Valuation Issues              M
 LTD     03-02    Identification of Intragovernmental Activity                         L
                  Disconnect between General Ledger Accounting and Day-
 LTD     03-03                                                                         M
                  to-Day Strategic National Stockpile (SNS) Operations
 LTD     03-04    Strategic National Stockpile Definition of Entity                    M
                  Certain Federal Law Enforcement Training Center (FLETC)
 LTD     03-05                                                                                  14     03-01
                  Leases
 LTD     03-06    Intragovernmental Reconciliations at FLETC and FPS                   L
 LTD     03-07    Integration of the Inventory Management System (IMS)                 M
                  Control Testwork Findings at the Strategic National
 LTD     03-08                                                                         M
                  Stockpile
                  Evaluation of the Environmental Liability at Plum Island
 LTD     03-09                                                                                  14     03-02
                  Animal Disease Center (PIADC)

                  Beginning/Transferred-in Balances to DHS were not
 ODP     03-01                                                               G
                  accurate
 ODP     03-02    “Status 90” grants not programmatically closed                                15     03-01
 ODP     03-03    Year-end closing procedures can be improved                                   15     03-02
                  ODP’s management needs to provide more oversight and
 ODP     03-04                                                               A                  15     03-03
                  guidance for its financial reporting

 TSA     03-01    Property Management                                        D
 TSA     03-02    MARAD Expenditures and Advances                                               16     03-04
 TSA     03-03    Accounts Payable                                                     N
 TSA     03-04    Missing employee personnel records                                            16     03-02
 TSA     03-05    DHS Bureau Procedures                                      A
 TSA     03-06    Leases                                                                        16     03-01
 TSA     03-07    Document Retention                                                            16     03-02
 TSA     03-08    Internal Control Monitoring and Evaluation                                    16     03-03
 TSA     03-09    Internal Affairs and Program Review Reporting                                 16     03-03

USCG     03-001 Compliance with FFMIA                                                           22     03-14
USCG     03-002 OM&S Repairable Items                                        E
USCG     03-003 Field-Held OM&S                                              E
USCG     03-004 Physical Inventories of Field-Held OM&S                      E
USCG     03-005 PP&E Improvements                                            D
USCG     03-006 Fund Balance with Treasury Reconciliation’s                            K
USCG     03-007 Retiree & Annuitant Services Reconciliation                                     19     03-06
                Additional Observations of Physical Inventories for Field-
USCG     03-008 Held                                                         E
                OM&S
USCG     03-009 Allowance for Doubtful Accounts                                                 19     03-05
USCG     03-010 Access Control – Accessions                                                     21     03-12


                                                       26
                                                                                              Appendix A
                              Department of Homeland Security
                     Crosswalk – Financial Management Comments to NFR’s
                                      September 30, 2003



                                                                                      Disposition
                                                                                PAR                 FMC
          NFR
Bureau          Description                                                 MW        RC      Page        No.
          No.
USCG     03-011 General Ledger Account Balance- Accounts Receivable                            18     03-02
                Supporting Documentation - Non-Project-Related Post 1994
USCG     03-014                                                             A
                PP&E
USCG     03-015 Undelivered Orders - AR&SC                                            N
USCG     03-016 Note Disclosure – Leases                                    B
USCG     03-017 Note Disclosure – Fund Balance with Treasury (FBWT)         B
USCG     03-018 Intragovernmental Accounts Payable                                    L
USCG     03-019 Fund Balance with Treasury (FBWT) Reconciliations                     K
USCG     03-020 Pre FY 1995 Real Property Valuation                         A
USCG     03-021 Pre FY 1995 Aircraft and Vessels                            A
                Inventory Control Point (ICP) Physical Inventory Policies
USCG     03-022                                                             D
                and Procedures
USCG     03-023 Intragovernmental Assets                                              L
USCG     03-024 FY 2002 Medical Cost Information                                               20     03-08
USCG     03-026 Financial Reporting Process                                 B
USCG     03-027 Environmental Liabilities – Shore Facilities                                   20     03-10
USCG     03-028 Environmental liabilities – Vessels                                            20     03-10
USCG     03-029 Legal Representation Letter                                                    20     03-11
USCG     03-030 Investments Receivable                                                         18     03-04
USCG     03-031 Permanent Change of Station (PCS) Costs                     F
USCG     03-032 Useful Lives – Vessels                                      D
USCG     03-033 Confidential Financial Disclosures                                             21     03-13
USCG     03-034 FY 2002 Medical Cost Information                                      N
USCG     03-035 Undelivered Orders/Accounts Payable – Medical Expenses                N
USCG     03-036 Year-end accrual                                                      N
USCG     03-037 Imputed Financing                                                              20     03-09
USCG     03-038 Pension Data                                                                   19     03-07
USCG     03-039 Financial Management and Oversight                          A
USCG     03-040 Oil Spill Liability Trust Fund (OSLTF)                                         18     03-03
USCG     03-041 Undelivered Orders - Finance Center                                   N
USCG     03-042 Additions and Deletions                                     D
USCG     03-043 Clearing (Suspense) Accounts                                                   18     03-01

USSS     03-01    1% Retroactive Pay Raise                                                     23     03-02
USSS     03-02    Updates of Employee Files                                                    23     03-01
USSS     03-03    Reporting of Pension Liability                            F
USSS     03-04    Intragovernmental Elimination Reconciliation                        L
USSS     03-05    Counterfeit Contraband System                                                23     03-03




                                                      27
        Report Distribution



        Department of Homeland Security

        Secretary
        Deputy Secretary
        General Counsel
        Chief of Staff
        Under Secretary, Management
        DHS Chief Financial Officer
        DHS OIG Liaison
        DHS Public Affairs

        Office of Management and Budget

        Chief, Homeland Security Branch
        DHS OIG Budget Examiner

        Congress

        Congressional Oversight and Appropriations Committees as
        Appropriate




Management Letter for the FY 2003 DHS Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
